No. 20 - ______

IN THE SUPREME COURT OF THE UNITED STATES
___________
CLARENCE TAYLOR—Petitioner
v.
UNITED STATES OF AMERICA—Respondent
PROOF OF SERVICE
I, ETHAN H. STONE, do swear or declare that on this date, August 5, 2020, as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF CERTIORARI, and
APPENDIX TO PETITION FOR WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to
a third-party commercial carrier for delivery within 3 calendar days. The names and
addresses of those served are as follows:
A. Carley Palmer
Assistant United States Attorney
1000 United States Courthouse
312 North Spring Street
Los Angeles, CA 90012
(213) 894-0282
Attorney for Respondent

Clarence Taylor
Register No. 98284-198
FCI Mendota
Federal Correctional Institution
P.O. Box 9
Mendota, CA 93640
(559) 274-4000

Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 5, 2020 at Berkeley, California.
________________________
ETHAN H. STONE

